• to. ,

No. 20-8298

IN THE SUPREME COURT OF THE UNITED STATES OF AMERICA.
HENRY FREDERICK RAMEY, (CSC No. S2687121
COA No. 4th Civ. E0769441
JR,
SBSC No. CIVSB 210196633)
SBSC No. LLTVA 2000547)
Petitioner,
v.
APPELLATE DIVISION OF
SUPERIOR COURT OF THE
STATE OF CALIFORNIA, IN
AND FOR THE COUNTY OF
SAN BERNARDINO, HECTOR
PENA GOMEZ,
Respondents.
SUPPLEMENTAL BRIEF.
ON PETITION FOR WRIT OF CERTIORARI TO THE CALIFORNIA
COURT OF APPEAL, FOURTH APPELLATE DISTRICT, DIVISION TWO.
HENRY FREDERICK RAMEY, JR.
24784 5th St.
San Bernardino, CA, 92410
TEL.: (909) 678-9348
hanksanberdoo@aol.com
Petitioner in Pro Se.

received
AUG 11 2021
Supplemental Brief-Ramey v. Appellate Division
of Superior Court-1

QUESTION PRSENTED FOR REVIEW.
Did the California Court of Appeal, Fourth Appellate District, Division Two,
err in an of issue of nationwide importance, and now in conflict with the Ninth
Circuit, and refused to grant a Writ of Mandamus, despite the fact that the Trial
Court was proceeding to Trial in an Unlawful Detainer Case despite an Eviction
Moratorium issued by the Centers of Disease Control?

Supplemental Brief-Ramey v. Appellate Division
of Superior Court-2

CORPORATE DISCLOSURE STATEMENT.
None of the Parties is a corporate entity or even a Limited Liability
Company.

Supplemental Brief-Ramey v. Appellate Division
of Superior Court-3

ARGUMENT.
INTRODUCTION.
Petitioner is a victim of injustice. Despite being an issue of law, on July 7, 2021,
counsel for Respondent Pena Gomez, Michael C. Earle, lied to both Court and Jury at
Petitioner’s Jury Trial in Pena Gomez v. Ramey, San Bernardino Superior Court Case No.
LLTVA 2000547 that the CDC Eviction Moratorium does not apply to Petitioner’s case
when it damn well applies in his case. He should be disciplined like Rudolph W. Giuliani.
See

In

re

Giuliani

(New

York

1

App.

httns://s3 .documentcloud.org/documents/20971841/matter-of-giuliani.pdf,
Giuliani

(D.

C.

Ct.

of

App.

2021)

Div.
and

2021)
In

re

https://www.democracydocket.com/wp-

content/uploads/sites/45/2021 /07/Order-Sua-Sponte-Staying-Appeal .pdf.

This

Court

upheld the Moratorium in Alabama Ass’n of Realtors v. Dept, of Health & Human
Services, https://www.supremecourt.gov/opinions/20pdf/20a 169 4fl 5 .pdf (2021), by a 54 vote.
On August 3, 2021, the Centers for Disease Control reinstituted it’s Eviction
Moratorium. If this case came from either Modoc or Plumas Counties, then the
Moratorium would no longer apply, BUT it still applies to San Bernardino County which
is next to Los Angeles County, which is mounting high on more COVID-19 cases. In
fact, the rest of California’s 54 other Counties, including Sacramento, San Francisco,
Alameda, Santa Clara, Orange, and San Diego Counties are in the high or substantial
range of Covid Cases. Because the Country is still ravaging from the COVID-19 Delta
Variant, the last thing we need is multiple evictions and spread this Country into a land of
death and misery like what India and Brazil is going through.
Ill
III
III
III

Supplemental Brief-Ramey v. Appellate Division
of Superior Court-4

I.

THE CALIFORNIA COURT OF APPEAL LACKS JURISDICTION IN A

CASE INVOLVING NATIONAL IMPORTANCE, AND NOW IN CONFLICT
EITH THE NINTH CIRCUIT, IN THAT THE UNLAWFUL DETAINER
COMPLAINT IS BARRED BY THE SERVICE OF THE CDC DECLRATION
TEMPORARILY BARRING EVICTIONS.
Petitioner Henry Frederick Ramey, Jr., served his CDC Declaration on Real Party
in Interest on October 9 and 12, and November 24, 2020. The purpose of the CDC
Declaration is to bar Unlawful Detainer Actions until, now,. July 31, 2021. Since the new
CDC Eviction Moratorium was enacted on August 3, 2021, that Moratorium now expires
on October 3, 2021. No Unlawful Detainer Action should have been commenced after the
Declaration after it was served on Real Party in Interest. Accordingly, NOBODY IN
THE CALIFORNIA COURTS WAS LISTENING NOT EVEN THE TRIAL JUDGE
WHO REPEATED JURY INSTRUCTIONS AND MADE REFERENCE TO AN
UNRELATED LLC.
Petitioner had a Jury Trial between July 6-7, 2021, where the Jury had ruled
against him. However, the Judgment was not entered yet. A Hearing on the Status of the
Judgment is on August 20, 2021, at 8:30 a. m., in Department S17 of the San Bernardino
Superior Court. No Writ of Possession has been issued yet.
Petitioner sought review as to Case No. LLTVA 2000547, Because the Centers for
Disease Control originally issued its Eviction Moratorium on September 4, 2020. The
current Moratorium now expires on October 3, 2021.
Yet, Real Party in Interest continued to prosecute the Unlawful Detainer Action,
which is a misdemeanor under Federal Law on the basis of seeking the February 2020
rent that was paid on March 8, 2021, as part of Petitioner’s then Chapter 13 Bankruptcy
Plan, and which Petitioner already paid the previous owner Irina Hernandez $450 on
April 2, 2020, pursuant to her Three Day Notice to Pay Rent or Quit. Because of the CDC
Eviction Moratorium, the Superior Court lacks all jurisdiction to proceed in Case No.
LLTVA 2000547 as on this date.
Supplemental Brief-Ramey v. Appellate Division
of Superior Court-5

The

new

Moratorium,

https://www.cdc.gov/coronavirus/2019-

ncov/communication/Signed-CDC-Eviction-Order.pdf, at p. 13, states that:
“Any evictions for nonpayment of rent initiated prior to issuance of
this Order but not yet completed, are subject to this Order. Any tenant,
lessee, or resident of a residential property who previously submitted a
Declaration, still qualifies as a ‘Covered Person’ and is still present in a
rental unit is entitled to protections under this Order. Any eviction that was
completed before issuance of this Order including from August 1 through
August 3, 2021 is not subject to this Order, as it does not operate
retroactively.”
Here, Respondents still lacked all authority to hear this Unlawful Detainer Action,
because the Centers for Disease Control, now headed by Dr. Rochelle P. Walensky, M.
D., M. Ph. Has already made the determination that there should be no eviction cases
heard during the pandemic.
This Court has not yet fully ruled on a validity of an Eviction Moratorium.
Petitioner does not want to hear about “how it adversely affects the property owners of
rental property.” If some Members of this Court believe in a right to life, then it should
uphold the CDC Eviction Moratorium and prevent illness and deaths because of
homelessness and cramped family quarters and garages due to COVID-19. If one is not in
this belief, then ask Congresswoman Cori Bush.
Of course this Court should have learned from the cases of Dred Scott v Sanford,
60 ITS. 393, 19 How. 393, 15 L. Ed. 691 (1857), and Plessy v. Ferguson, 163 ITS. 537,
16 S. Ct. 1138, 41 L. Ed. 256 (1896), that a Court should not be using excuses to deprive
the rights of the people.
Petitioner requests that since there is no definitive Decision affecting an Eviction
Moratorium, even though there was one during World War II (See Tranchina v. Arcinas
(Cal. App. 1 Dist. 1947) 78 Cal.App.2d 522, 526.), and that he is a Type 2 Diabetic
entitled to relief under the CDC Eviction Moratorium, instead of denying this Petition in
secret, and despite meeting the requirements of the Moratorium, Petitioner requests that

Supplemental Brief-Ramey v. Appellate Division
of Superior Court-6

.t

the Petition be granted, and that he be appointed counsel for this Petition, like in Gideon
v. Wainwright, 372 U.S. 335 (1963).
CONCLUSION.
Petitioner hereby requests that this Court reverse the Order Denying the Petition
for Writ of Mandamus filed on April 22, 2021, and thereafter require the Appellate
Division of the Superior Court to in turn issue a Writ of Mandamus instructing the Trial
Court to dismiss Hector Pena Gomez v. Henry Frederick Ramey, Jr., San Bernardino
Superior Court Case No. LLTVA 2000547, and restrain the issuance of any Judgment or
Writ of Possession therein.
Dated this 4th day of August, 2021
By?

HENpF DERICK
RAMEY, JR
Petitioner in Pro Se.

Annelise Marie Frank (1929-1945)
Jose Ferrer (1912-1992)
Henry Fonda (1905-1982)
The Hon. Abe Fortas (1910-1982)
Supplemental Brief-Ramey v. Appellate Division
of Superior Court-7

